                                                                  Issue Date
                                                                      December 5, 2007
                                                                  Audit Report Number
                                                                       2008-NY-1002




TO:         Rosalinda Lamberty, Director, Multifamily Housing, 2CHM


FROM:       Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Richard A. Hutchens and Associates, Management Agent, Buffalo, New York,
         Used Project Funds for Ineligible and/or Unsupported Costs

                                    HIGHLIGHTS

 What We Audited and Why
           In response to a request by the U.S. Department of Housing and Urban
           Development (HUD) Buffalo, New York, field office staff, who were concerned
           over questionable expenditures by an identity-of-interest company, we audited
           Richard A. Hutchens and Associates (agent) pertaining to its management of the
           financial operations of Cayuga Village (Project No. 014-35163) and Touraine
           Apartments (Project No. 014-35035).

             The objectives of our audit were to determine whether the agent used project
             funds in accordance with the regulatory agreement and HUD requirements.
             Specifically, we wanted to determine whether the agent (1) provided adequate
             documentation to support the reasonableness of payments made to an identity-of-
             interest company, (2) made loans and withdrawals of residual receipts that were
             authorized, and (3) disbursed project funds for expenditures that were reasonable
             and necessary.

 What We Found
             The agent did not solicit competitive bids or maintain adequate documentation to
             support that it paid the lowest rates available when hiring an identity-of-interest
             company to perform repair and maintenance work. We attribute this condition to
             the agent’s failure to follow HUD regulations. As a result, the agent cannot
             ensure HUD that all transactions were at arms length and that the services
           obtained were at the most reasonable and economical price. Consequently, there
           is no assurance that $987,697 in incurred costs was a reasonable use of project
           funds.

           The agent made unauthorized loans and withdrawals of residual receipts. We
           attribute these deficiencies to the agent’s lack of cash controls and its
           unfamiliarity with the provisions in the regulatory agreements. As a result,
           $349,703 in project funds was not available to pay for operating expenses of the
           project, and $155,639 in residual receipts will not be available to fund future
           shortfalls.

           In addition, the agent improperly disbursed project operating funds to pay
           expenses that were questionable and did not make a required payment to the
           residual receipts account or make a required equity payment in a timely manner.
           These deficiencies occurred because the agent’s general manager did not have an
           understanding of HUD’s rules and regulations. Consequently, the projects were
           deprived of $142,785 in operating funds that would have been available to pay for
           other operating expenses of the project, the residual receipts account was
           underfunded by $7,902, and a required equity payment was late.

What We Recommend
           We recommend that the Director of the Buffalo Office of Multifamily Housing
           instruct the owner and agent to develop procedures to ensure compliance with all
           terms of its regulatory agreement. We also recommend that HUD require the
           owner and agent to reimburse the projects for the ineligible costs associated with
           unauthorized loans and withdrawals from residual receipts, an improper salary
           advance, and excessive fees. Further, we recommend that HUD require the owner
           and agent to submit supporting documentation to justify the unsupported funds
           paid to the identity-of-interest company, unsupported salary expenses, and shared
           project expenses to enable HUD to make an eligibility determination.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We discussed the results of our review during the audit, provided a copy of the
           draft report to the auditee, and requested its comments on October 15, 2007. We
           held an exit conference on October 25, 2007 and the auditee provided their
           written comments on November 2, 2007, at which time they generally agreed with
           our findings. The auditee also provided attachments/exhibits with their comments
           that are not included in the report, but will be provided to the field office.
           Appendix B of this report contains the auditee’s comments, along with our



                                          2
evaluation of the comments. The names of specific individuals cited in the
auditee comments have be expunged to protect their identities from improper
disclosure.




                              3
                            TABLE OF CONTENTS

Background and Objectives                                                           5

Results of Audit
      Finding 1: The Agent Did Not Support the Reasonableness of Payments Made to   6
                 an Identity-of-Interest Company

      Finding 2: The Agent Made Unauthorized Loans and Withdrawals of Residual      9
                 Receipts

      Finding 3: The Agent Used Project Funds to Pay Questionable Expenses That     13
                 Were Not Reasonable and Necessary for Project Operations

Scope and Methodology                                                               17

Internal Controls                                                                   18

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                20
   B. Auditee Comments and OIG’s Evaluation                                         21
   C. Criteria                                                                      34




                                           4
                      BACKGROUND AND OBJECTIVES

Richard A. Hutchens and Associates (agent) is the management agent for Cayuga Village (Project
No. 014-35163) and Touraine Apartments (Project No. 014-35035). Cayuga Village is located in
Cheektowaga, New York, and is composed of 80 units operating under the provisions of Sections
223(a)(7) and 221(d)(4) of the National Housing Act. Touraine Apartments is located in Buffalo,
New York, and is composed of 104 units operating under the provisions of Section 221(d)(4) of the
National Housing Act. The U.S. Department of Housing and Urban Development (HUD) insures
the mortgages of both projects. The agent also manages Maple Ridge Estates, a HUD Section 8-
subsidized project (Contract No. NY06H108007). Richard A. Hutchens is the owner of the agent,
the managing general partner for Cayuga Village and Touraine Apartments, and has an identity-of-
interest relationship with Tarico Brothers Construction (Tarico), a construction company that
performed a variety of services at the projects.

Cayuga Village was referred to the HUD Office of Affordable Housing and Preservation for Mark-
to-Market loan restructuring on September 21, 2001. Processing was completed and a full renewal
contract was issued, effective June 1, 2003. Touraine Apartments was referred to the Office of
Affordable Housing and Preservation for Mark-to-Market loan restructuring on July 14, 2004.
Touraine’s rents were reduced through a Mark-to-Market watchlist contract that was issued,
effective October 1, 2005; however, at the conclusion of our on-site audit work, the loan had not yet
closed, and processing was pending.

The objectives of our audit were to determine whether the agent used project funds in accordance
with the regulatory agreement and HUD requirements. Specifically, we wanted to determine
whether the agent (1) provided adequate documentation to support the reasonableness of
payments made to an identity-of-interest company, (2) made loans and withdrawals of residual
receipts that were authorized, and (3) disbursed project funds for expenditures that were
reasonable and necessary.




                                                5
                                RESULTS OF AUDIT

Finding 1: The Agent Did Not Support the Reasonableness of Payments
           Made to an Identity-of-Interest Company
The agent did not solicit competitive bids or maintain adequate documentation when hiring an
identity-of-interest company to perform repair and maintenance work for more than $629,000 at
Cayuga Village and more than $358,000 at Touraine Apartments. This condition occurred
because the agent failed to follow HUD regulations. As a result, the agent was unable to provide
documentation indicating that all transactions were at arms length and that the services obtained
were at the most reasonable and economical prices for the projects. Consequently, there is no
assurance that $987,697 in incurred costs was a reasonable use of project funds.



 The Agent Paid $629,018 in
 Questionable Costs from
 Cayuga Village

              The agent hired an identity-of-interest company, Tarico, to provide repair and
              maintenance services at Cayuga Village without soliciting competitive bids,
              resulting in $629,018 in questioned costs that could have been available to pay for
              other operating expenses of the project. Some of the work performed at the
              project involved $100,676 for new roofing installation and $32,250 for electrical
              service installation in all of the project’s buildings. Additional services provided
              by the company included monthly maintenance fees totaling $61,101 and monthly
              grounds maintenance fees totaling $27,701. The agent did not execute contracts
              for any of these services, nor did it solicit written cost estimates from at least three
              contractors or suppliers before selecting Tarico to do the work as required by
              HUD Handbook 4381.5, REV-2, CHG-2, paragraph 6.50. Thus, the agent was
              unable to support that these charges were reasonable.

              The agent also hired Tarico to perform siding repair work at Cayuga Village with
              inadequate bid documentation. As part of its reserve for replacement withdrawal
              request to HUD for siding work, which was later denied, the agent submitted bid
              documents from four different companies. However, the general manager of the
              agent had a personal interest in three of the companies, including Tarico. Further,
              the core business of the remaining company that submitted a bid involved
              performing paving and not siding work. The bid document from Tarico, which
              was actually the invoice submitted to the agent for payment, indicated that
              materials and labor were to be provided at a cost of $215,320; however, the
              company charged the project $228,058 for materials and labor. Since the agent
              did not provide adequate documentation to support that Tarico was competitively




                                               6
           selected and that the costs paid were reasonable, the $228,058 paid to Tarico is
           considered unsupported.

           The agent also paid Cayuga Village interest on the unpaid invoices for the siding
           repair work and other services provided. These unreasonable finance charges
           totaled $26,425 and resulted from the agent’s not paying its expenses in a timely
           manner. Further, the identity-of-interest company was awarded a judgment on
           April 3, 2007, against the agent and the project for nonpayment of outstanding
           invoices. This action resulted in additional unreasonable costs of $4,267,
           including interest and court costs. These unreasonable finance, interest and court
           costs are considered to be ineligible. In addition, there was $148,540 in invoices
           from Tarico that was charged to Cayuga for items such as materials, snow
           removal, and additional maintenance costs that is considered unsupported. Since
           the agent did not provide adequate documentation to support the reasonableness
           of the invoices in question, the $148,540 paid to Tarico is considered
           unsupported.

           Overall, our review identified a total of $629,018 in questioned costs that was
           charged to the Cayuga Village project. Of this amount, $30,692 is considered
           ineligible and the remaining balance of $598,326 is considered unsupported.

The Agent Paid $358,679 in
Questioned Costs from
Touraine Apartments


           The agent also paid Tarico to provide repair and maintenance services at Touraine
           Apartments without submitting any competitive bid documentation, resulting in
           questioned costs of $358,679. Although we were provided one contract
           pertaining to the services provided by the company at Touraine Apartments, the
           agent did not provide evidence that it solicited bids for the work to be performed
           before hiring the company. Work performed by Tarico included general
           maintenance, repairs, painting, and snow plowing. Invoices totaling $129,265
           were charged to Touraine; however, there is no evidence that the prices paid were
           reasonable. In addition, on April 3, 2007, Tarico was awarded a judgment against
           the agent and Touraine Apartments for nonpayment for services provided at
           Touraine Apartments in the amount of $229,414. Of this amount, $225,572 in
           unpaid invoices are considered unsupported since there is no evidence to support
           the reasonableness of the costs paid, and $3,337 in interest and $505 in court costs
           are ineligible costs. Overall, $358,679 in questioned costs was charged to
           Touraine Apartments. Of this amount, $3,842 is considered ineligible and the
           remaining balance of $354,837 is considered unsupported.




                                          7
Conclusion

             The agent did not solicit competitive bids to support that it paid the lowest rates
             available when hiring Tarico to perform repair, maintenance, and other work at
             Cayuga Village and Touraine Apartments. Consequently, the agent cannot assure
             HUD that the use of the identity-of-interest company was cost effective. Thus,
             the projects may have been deprived of $987,697 in funds ($629,018 for Cayuga
             and $358,679 for Touraine) that could have been used for other reasonable and
             necessary operating expenses.

Recommendations

             We recommend that the Director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             1A.    Develop procedures to ensure compliance with all terms and conditions of its
                    regulatory agreements and HUD rules and regulations that require soliciting
                    bids; obtaining cost estimates for procuring contracts for materials, supplies,
                    and services; and obtaining and maintaining contracts with all service
                    providers.

             1B.    Reimburse the projects’ operating account from nonproject funds $34,534
                    for the ineligible finance charges, interest and court costs paid ($30,692 for
                    Cayuga Village and $3,842 for Touraine Apartments).

             1C.    Provide supporting documentation for the $598,326 in contract costs
                    charged to Cayuga Village. If any amounts are deemed ineligible, they
                    should be repaid or the payable should be removed from the project’s
                    books.

             1D.    Provide supporting documentation for the $354,837 in contract costs
                    charged to Touraine Apartments. If any of the amounts are deemed
                    ineligible, they should be repaid or the payable should be removed from
                    the project’s books.




                                             8
Finding 2: The Agent Made Unauthorized Loans and Withdrawals of
           Residual Receipts
The agent made unauthorized loans of project funds to (1) the managing general partner, (2) an
identity-of-interest company, and (3) other projects. Also, the agent acquired debt from other
projects and the managing general partner without requesting authorization from HUD. Further,
the agent made unauthorized withdrawals from the residual receipts account. We attribute these
deficiencies to the agent’s lack of cash controls and its unfamiliarity with the provisions in the
regulatory agreements. As a result, $349,703 in project funds was not available to pay for
operating expenses of the project. In addition, $155,639 in residual receipts will not be available
to fund future shortfalls.


 Unauthorized Loans Were
 Made to the Managing General
 Partner

               The agent made $71,065 in loans from project funds ($69,495 for Cayuga Village
               and $1,570 for Touraine Apartments) to Richard A. Hutchens and his related
               companies. Richard A. Hutchens is a principal of the agent and the managing
               general partner of Cayuga Village and Touraine Apartments. The regulatory
               agreement provides that the owner shall not pay out any funds except for
               reasonable operating expenses or encumber any personal property of the project
               without written approval from HUD. The agent loaned $49,065 in project funds
               by paying the expenses of Richard A. Hutchens and his related companies. These
               funds were used to pay for legal fees, payroll expenses, and the American Express
               account of the agent. Also, these funds were used to pay Richard A. Hutchens’
               personal equity credit line and the expenses of his companies not related to the
               project. In addition, the agent made $22,000 in loans via wire transfers and
               checks from Cayuga Village’s project funds to the agent’s bank accounts. The
               agent did not provide documentation or explain the reason for these transactions.

 Unauthorized Loans Were
 Made to an Identity-of-Interest
 Company

               The agent made $60,540 in loans from Cayuga Village’s project funds to an
               identity-of-interest company, Tarico, in violation of the regulatory agreement.
               The agent allowed Tarico to have access to the credit cards of the projects
               managed by the agent. In turn, the company used those credit cards to charge
               items that related to its own business expenses, not project-related expenses. For
               example, Cayuga Village’s operating funds were used to pay for 41 credit card
               invoices that included expenses that did not relate to Cayuga Village but, rather,
               to Tarico. Therefore, these amounts are considered to be loans, which are
               ineligible and should be repaid to the project.


                                               9
Unauthorized Loans Were
Made to Other Projects

           The agent made $106,405 ($105,916 for Cayuga Village and $489 for Touraine
           Apartments) in loans from project funds to other projects in violation of the
           regulatory agreement. For the most part, the loans represented Cayuga Village’s
           operating funds that were used to pay expenses of five other projects that were
           managed by the agent for such items as materials from Home Depot, office copier
           services, and elevator maintenance services. The agent made $66,835 in
           unauthorized loans of Cayuga Village project funds to Touraine Apartments and
           $34,172 in unauthorized loans of Cayuga Village project funds to Apple Blossom
           Acres. The remaining $5,398 in loans represented the agent’s making loans with
           Cayuga project funds to three other projects and making loans with Touraine
           project funds to one project.

The Agent Acquired Debt
without Authorization from
HUD

           The agent encumbered the projects with $111,693 ($38,515 for Cayuga Village
           and $73,178 for Touraine Apartments) in unauthorized loans. Of this amount,
           $77,932 pertained to the agent’s borrowing from other projects managed by the
           agent to pay expenses owed by Touraine Apartments and Cayuga Village. The
           regulatory agreement provides that the owner cannot encumber personal property
           of the project without written approval from HUD. The agent paid for $73,178 in
           Touraine Apartments’ expenses through the use of four other projects’ funds
           managed by the agent. The agent believed this practice was needed to keep
           Touraine Apartments afloat due to (1) the lack of operating funds available since
           operating under a Mark-to-Market watchlist contract and (2) a structural problem
           in the building that was not covered by insurance. To encourage owners to make
           advances to projects in critical situations, HUD may approve on a case-by-case
           basis requests to make advances and for repayment of such advances on a
           monthly basis as provided by HUD Handbook 4370.2 paragraph 2-11B. The
           agent did not obtain approval from HUD before encumbering the projects. The
           agent encumbered Cayuga for the remaining $4,754 in loans when it allowed two
           projects to pay for expenses of Cayuga Village.

           In addition, the agent encumbered Cayuga Village when the agent paid $33,761
           for siding materials on behalf of Cayuga Village. It appears that the agent paid
           these amounts because it was named in a lawsuit in which the vendor was
           awarded a judgment. Nevertheless, the agent should not have encumbered the
           project without first obtaining HUD approval.




                                         10
Withdrawals from the Residual
Receipts Accounts Were Made
without HUD Approval


             The agent made $155,639 in withdrawals from Touraine Apartments’ residual
             receipts accounts without HUD approval as required by the regulatory agreement,
             paragraph 2(c). The funds were used to pay vendors and cover bank charges of
             Touraine Apartments. The agent did not provide a reason why HUD approval
             was not obtained before the withdrawals were made. During an interview, the
             independent public accountant expressed disbelief that the agent attempted to
             obtain HUD approval since the residual receipts were not in a HUD-controlled
             account, and, thus, it was not necessary. However, the regulatory agreement
             requires that the receipts be under the control of HUD and be disbursed only on
             the direction of HUD for purposes that HUD determines. The residual receipts
             fund should be available to fund items such as mortgage shortfalls and operating
             deficiencies, as such unauthorized withdrawals can lead to potential management
             shortfalls and mortgage defaults. Thus, the residual receipts account was
             underfunded by $155,639 due to the withdrawals that were not approved by HUD.

Conclusion

             The agent made advances of project funds and encumbered the projects with loans
             without authorization from HUD. Consequently, $349,703 in loans of project
             funds was not available to pay for operating expenses of the project. Of this
             amount, the agent will need to reimburse the projects’ operating accounts
             $238,010 and repay $111,693 in unauthorized loans from nonproject funds. In
             addition, $155,639 in withdrawals of residual receipts is considered ineligible.
             Therefore, residual receipts funds are not available to fund items such as
             mortgage shortfalls and operating deficiencies, thereby effecting the future
             management of the project.

Recommendations

             We recommend that the Director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             2A.    Develop procedures and implement controls that will ensure compliance
                    with all terms and conditions of their regulatory agreements.

             2B.    Discontinue the practice of using project funds to pay for the expenses of
                    other projects.




                                           11
2C.   Discontinue making withdrawals from the residual receipts account
      without prior written approval from HUD and develop procedures to
      ensure that the residual receipts account is properly funded.

2D.   Reimburse the projects’ operating accounts from nonproject funds
      $238,010 ($235,951 for Cayuga Village and $2,059 for Touraine
      Apartments) for ineligible advances of project funds.

2E.   Repay from non project funds $111,693 ($38,515 for Cayuga Village and
      $73,178 for Touraine Apartments) for unauthorized loans and if any
      amount has been paid from project funds, the agent should be instructed to
      reimburse the operating account.

2F.   Obtain approval from HUD or reimburse the residual receipts account of
      Touraine Apartments from nonproject funds $155,639 for the
      unauthorized withdrawals.




                            12
Finding 3: The Agent Used Project Funds to Pay Questionable
           Expenses That Were Not Reasonable and Necessary for
           Project Operations
The agent improperly disbursed operating funds of Cayuga Village and Touraine Apartments to
pay expenses that were questionable and did not make a required payment to the residual receipts
account or make a required equity payment in a timely manor. Specifically, the agent (1)
disbursed $60,267 in ineligible and unsupported salary expenses, (2) improperly allocated
$47,852 in shared expenses, (3) collected $34,666 in excessive management fees, (4) did not
make a required deposit of $7,902 to the residual receipts account, and (5) failed to pay $91,650
owed under the mortgage restructuring note in a timely manner. These deficiencies occurred
because the agent’s general manager did not have an understanding of HUD’s rules and
regulations. Consequently, the projects were deprived of $142,785 in operating funds that would
have been available to pay for other operating expenses of the project, the residual receipts
account was underfunded by $7,902, and a required equity payment was late.


 The Agent Disbursed Ineligible
 and Unsupported Salary
 Expenses

              The agent disbursed $60,267 in ineligible and unsupported salary expenses as
              follows:

              Improper Advance

              The agent loaned an employee of the agent $5,000 from Cayuga Village’s
              operating account. This is an ineligible use of project funds. In turn, the agent
              reduced its employee’s paycheck by $100 for the next 50 weeks. However, the
              agent did not reimburse the project for the reimbursements it received.

              Unsupported Salary

              The agent charged Cayuga Village and Touraine Apartments $55,267 in
              unsupported salary expenses. The agent charged employees’ gross wages to the
              projects and then added an additional amount to cover other employee fringe
              benefits. The additional amount was calculated at 29 to 30 percent of gross
              wages. The agent provided us a list of expenses covered under the percentages.
              One of the largest items was New York state unemployment insurance, which
              made up 9.4 percent of the amount. However, New York state unemployment
              insurance was only charged for the first $8,500 of the employees’ gross wages.
              Thus, when the employee earned $8,500, the agent was no longer being charged
              this amount, but the agent continued to charge the projects. Also, the agent
              identified that 11.5 percent of this amount was for workman’s compensation




                                             13
            insurance. However, the agent did not provide support indicating the amount
            paid. Therefore, the $55,267 is unsupported.

The Agent Improperly
Allocated Shared Expenses

            The agent did not properly allocate $47,852 for items such as telephone,
            insurance, and maintenance expenses. Although the agent managed other
            properties, it shared office space with Touraine Apartments; however, the agent
            did not have an allocation plan that identified what expenses were shared between
            its projects and the management company. The agent also had not identified
            which expenses it shared with Touraine Apartments to support the reasonableness
            of the $47,852 charged to Touraine Apartments. As a result, this amount is
            considered to be unsupported.

The Agent Collected Excessive
Management Fees


            The agent overcharged Cayuga Village $27,199 and Touraine Apartments $7,467
            in management fee expenses. The agent charged the projects a set rate each
            month, which was more than the agent earned. This condition occurred because
            the agent provided the accountants the wrong fee percentages. The calculation of
            the management fee by the independent public accountants was based on a 6.75
            percent fee for Cayuga Village and a 6.5 percent fee for Touraine Apartments,
            when the agreed-upon fee in the management certification for both projects was
            6.25 percent of residential income collected. As a result, $34,666 in excessive
            management fees was charged to the projects during the period between January
            1, 2004, and December 31, 2006.


The Agent Did Not Make a
Required Deposit to the
Residual Receipts Account

            The agent did not make a required deposit of $7,902 to the residual receipts
            account of Touraine Apartments based upon the computation of surplus cash as of
            December 31, 2003. The regulatory agreement provides that the residual receipts
            shall be deposited within 60 days after the end of the fiscal period. However,
            although funds were available March 1, 2004, the agent did not make the required
            residual receipt payment. Therefore, HUD should ensure that the agent deposits
            this amount into Touraine’s residual receipt account.




                                          14
The Agent Did Not Make the
Necessary Mortgage Payments
in a Timely Manner

             The agent failed to make $91,650 in mortgage payments on the mortgage
             restructuring note in a timely manner. The $91,650 was due on April 1, 2005,
             according to the multifamily mortgage account statement. The agent provided us
             the multifamily mortgage account statements through April 20, 2007, all of which
             indicated that the amount was due. However, the agent’s general manager
             claimed that he was not aware of the amounts due. After we discussed this matter
             with HUD staff, HUD issued a formal letter on June 14, 2007 advising that the
             agent was in violation of its regulatory agreement and mortgage restructuring
             note. In response, the agent made the $91,650 payment on July 23, 2007.
             However, this amount may have been recorded on the project’s books as a
             payable to the agent.

Conclusion

             The agent improperly disbursed operating funds of Cayuga Village and Touraine
             Apartments to pay expenses that were questionable. Consequently, $39,666 in
             ineligible expenses should be repaid, $7,902 should be deposited into Touraine’s
             residual receipts account, and the agent needs to provide support for $103,119 so
             that HUD can make an eligibility determination.

Recommendations

             We recommend that the Director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             3A.    Develop procedures to ensure that the agent will abide by all terms and
                    conditions of the regulatory agreements that require project funds to be
                    expended only for reasonable and necessary expenses and residual receipt
                    deposits and mortgage payments to be made in a timely manner.

             3B.    Reimburse the projects’ operating account from nonproject funds $39,666
                    for the ineligible employee advance and excessive management fees paid
                    ($32,199 for Cayuga Village and $7,467 for Touraine Apartments).

             3C.    Provide appropriate supporting documentation for the $55,267 in salary
                    expenses or reimburse the project account(s) from nonproject funds
                    ($26,779 for Cayuga Village and $28,488 for Touraine Apartments).




                                           15
3D.   Provide supporting documentation for the allocated $47,852 in
      unsupported/shared expenses charged to Touraine Apartments or
      reimburse the project from nonproject funds.

3E.   Establish a cost allocation plan that would ensure an equitable distribution
      of any shared expenses. Procedures should allow for a new allocation
      plan to be computed on an annual basis.

3F.   Reimburse the residual receipts account of Touraine Apartments from
      nonproject funds $7,902 for the funds that were not deposited.

3G.   Provide evidence that the $91,650 payment for the mortgage restructuring
      note was properly recorded.




                             16
                        SCOPE AND METHODOLOGY

Our review focused on whether the agent used project funds in accordance with regulatory
agreements and HUD requirements. To accomplish our objectives, we interviewed auditee
personnel and HUD officials. In addition, we reviewed regulatory agreements, applicable HUD
regulations, and the agent’s management certifications. We examined the projects’ financial
records by downloading and analyzing the projects’ Quickbook files and selecting those
transactions that related to our audit objectives. We reviewed the audited financial statements
prepared by the projects’ independent public accountants. We also reviewed information obtained
from HUD’s Real Estate Management System and Financial Assessment Subsystem.

The review covered the period from January 1, 2004, through December 31, 2006, and was
extended as necessary. We performed audit work from January through July 2007 at the offices
of the agent located in Buffalo, New York.

The review was conducted in accordance with generally accepted government auditing
standards.




                                             17
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                             18
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

           •      The agent did not have an adequate system to ensure compliance with the
                  regulatory agreement or laws and regulations when it did not ensure the
                  reasonableness of payments to an identity-of-interest company, made
                  unauthorized loans and withdrawals of residual receipts, and made
                  questionable disbursements of project operating funds (see findings 1, 2, and
                  3).

           •      The agent did not have an adequate system to ensure that resources were
                  properly safeguarded when it charged questionable expenditures to the
                  projects and allowed unauthorized loans and disbursements of project funds
                  (see findings 2 and 3).




                                         19
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

      Recommendation            Ineligible 1/    Unsupported      Funds to be put
             number                                       2/       to better use 3/
                     1B               34,534
                     1C                               598,326
                     1D                               354,837
                     2D            $238,010
                     2E            $111,693
                     2F            $155,639
                     3B             $39,666
                     3C                               $55,267
                     3D                                47,852
                     3F               $7,902
                     3G                                                   $91,650
                   Total           $587,444        $1,056,282             $91,650

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, the payment of the outstanding
     mortgage amount represents funds to be put to better use because it paid an overdue
     liability and the payment reduced the risk to HUD’s insurance fund.




                                           20
      Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




Comment 4

Comment 3




                         22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 5




Comment 6




                         23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 8




Comment 9




Comment 10




                         24
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 10


Comment 3


Comment 11




Comment 9




Comment 12




Comment 13




                         25
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 13




Comment 14




Comment 15




Comment 7




                         26
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 7




Comment 16




Comment 17




                         27
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 18




Comment 19




Comment 20




Comment 7




                         28
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7


Comment 21




                         29
                         OIG Evaluation of Auditee Comments

Comment 1   Officials for the agent contend that the significant concerns and compliance issues
            regarding violations of the regulatory agreement were not brought to the attention
            of the owner of the agent, Richard A. Hutchens, until July 2007. However, it
            should be noted that throughout the course of our onsite audit work from January
            2007 through July 2007, officials for the agent were kept informed of our
            concerns. In addition, a pre-exit conference meeting was held with the owner of
            the agent and the general manager on June 26, 2007 informing both officials of
            the violations of the regulatory agreement and other significant concerns
            identified during our review. Thus, this report should come as no surprise.

Comment 2   The owner concedes that the actions of the general manager constitute serious
            deficiencies pertaining to internal control procedures, compliance with the
            regulatory agreements, compliance with procurement procedures, unauthorized
            loans, usage of company credit cards, unauthorized withdrawals from the residual
            receipts accounts, and not making the required mortgage loan payments in a
            timely manner. While the owner appears to have taken action to remove the
            general manager believed to be the cause for the deficiencies identified in the
            report, ultimately the owner of the project is responsible for complying with the
            regulatory agreement and HUD rules and regulations pertaining to the projects.

Comment 3   The actions being taken by the owner/agent are responsive to our
            recommendations. While we encourage the agent to continue to research
            documentation to support the ineligible and unsupported charges, future
            correspondence and support should be directed to HUD to be considered during
            the audit resolution process.

Comment 4   The actions being taken by the owner/agent are responsive to our
            recommendations. However, although officials contend that the issue of
            improperly advanced funds was satisfied prior to the closing of Touraine
            Apartment’s Mark-to-Market restructuring in August 2007; through the
            completion of our onsite audit work, it could not be determined whether the
            improperly advanced funds were properly reimbursed and resolved.

Comment 5   Officials for the agent contend that there are questions and concerns regarding the
            legal validity of the owner’s relationship with the alleged identity-of-interest
            company, for which the owner is securing legal counsel regarding this matter.
            However, during our review, we determined that the owner had an identity-of-
            interest relationship with Tarico Brothers Construction.

Comment 6   Officials for the agent state that the owner has personally paid $733,245.04 on
            behalf of Cayuga Village and Touraine Apartments and provided documentation
            supporting these payments. However, our review noted that although the owner
            made various payments (wire transfers, etc.) the documentation provided was not



                                           30
              adequate to determine whether the payments addressed the costs questioned in
              this report. As such, the owner should work with HUD during the resolution
              process to resolve these issues.

Comment 7     The actions taken are responsive to our findings and/or recommendations.

Comment 8     Officials for the agent are in the process of consulting with legal counsel to
              determine whether these costs may be reclaimed through formal legal action
              against Tarico Brothers Construction. However, although formal legal action is
              being sought, it is the responsibility of the project owner to reimburse the
              project’s operating account from non project funds.

Comment 9     Officials for the agent state that they were not made aware of the lawsuit which
              resulted in the finance charges and court costs charged to Cayuga Village and
              Touraine Apartments. Further, the owner’s legal counsel was not notified of the
              pending litigation and a defense was never made on the projects behalf due to the
              actions of the general manager. While this may be true, the project owner is
              responsible to reimburse all ineligible costs incurred.

Comment 10 Officials for the agent provided documentation to justify the expenses paid for
           monthly maintenance and additional maintenance fees at Cayuga Village. We
           reviewed the documentation submitted subsequent to our review and noted that
           although work orders for the maintenance work performed was provided, there is
           no documentation to support the reasonableness of the payments made to Tarico
           Brothers Construction. Thus, the $598,326 in identity-of-interest expenses at
           Cayuga Village is still considered unsupported due to lack of bid documents and
           inadequate procurement procedures.

Comment 11 Officials for the agent state that they are consulting with legal counsel to
           determine whether the unsupported charges pertaining to the siding work can be
           reclaimed through formal legal action against the identity-of-interest construction
           company. Officials further contend that the owner provided the project $165,000
           in 2006 to pay costs associated with the siding invoices and other bills to the
           identity-of-interest company, however during our review we found no evidence to
           support that the owner provided the $165,000 to pay for the costs in question.

Comment 12 Officials for the agent concur that bids were not submitted regarding the
           maintenance, repair, and snow plowing work performed at Touraine Apartments.
           However, officials submitted documentation to provide evidence of the identity-
           of-interest company performing the security guard work. We have reviewed the
           documentation subsequently submitted and noted the absence of bid documents.
           Further, the information that was provided does not support that the services in
           question were obtained at the most reasonable and economical price for the
           project. While we encourage the agent to submit appropriate supporting bid
           documentation to HUD from this point forward, procurement procedures were not
           followed during our audit period and thus, the costs remain unsupported.



                                            31
Comment 13 Officials for the agent concur that bids were not procured regarding the night
           maintenance services provided at Touraine Apartments. These services were
           previously performed by a tenant for a nominal fee however due to liability issues
           the duties were combined under the umbrella of night maintenance. Subsequent
           bids have now been obtained and were submitted to HUD for approval. Our
           review disclosed that procurement procedures were not followed during the audit
           period and bids were not procured at the time, thus, the costs incurred remain
           unsupported.

Comment 14 Officials for the agent concur that bids were not submitted regarding the cleaning
           services provided at Touraine Apartments. While we encourage the agent to
           submit appropriate bid documents to HUD in the future, procurement procedures
           were not followed during our audit period; therefore, the costs associated with the
           cleaning contract remain unsupported.

Comment 15 Officials for the agent state that additional maintenance fees were charged as
           Touraine Apartments employed an additional part time maintenance employee to
           assist American Cleaning and Maintenance in the general daytime maintenance
           duties including apartment /building work orders and make readies. It is our
           contention that while the agent may be able to provide work orders for the work
           completed, there are no procurement documents to support the reasonableness of
           the work performed. Procurement procedures were not followed and accordingly,
           the additional fees paid remain unsupported.

Comment 16 Officials for the agent contend that the issues of improperly advanced funds and
           unauthorized loans were satisfied prior to the closing of Touraine Apartment’s
           Mark-to-Market restructuring. However, during the course of our review, it could
           not be determined whether the improperly advanced funds and unauthorized loans
           were properly reimbursed and resolved, as such; supporting documents must be
           submitted to HUD for consideration during the audit resolution process.

Comment 17 Officials for the agent contend that partial reimbursement was made pertaining to
           the unauthorized withdrawals from the residual receipts fund, and that the owner
           will request HUD approval of the bills that were paid covering the balance. Our
           review did not disclose any evidence to support that unauthorized withdrawals
           were properly reimbursed and resolved.

Comment 18 Officials for the agent state that there were two HUD 9839 Management
           Certification forms in circulation for each project leading to confusion regarding
           the excessive management fees paid. However, our review did not disclose
           evidence that the owner waived $24,710 in uncollected management fees for
           Touraine Apartments. As such, during the audit resolution process HUD will
           determine whether these funds were properly reimbursed and resolved. Also, the
           owner did not address the ineligible employee advance that should be repaid.




                                            32
Comment 19 The actions taken are responsive to our recommendations, however
           documentation for the surcharge still needs to be submitted to HUD for an
           eligibility determination or the amount should be repaid.

Comment 20 Officials plan to include complete documentation of the shared expenses in their
           supplemental allocation plan, which is responsive to our recommendation. Thus,
           any amounts not supported should be repaid.

Comment 21 Officials for the agent provided a copy of the cancelled check and statement from
           Prudential as evidence that the $91,650 payment for the mortgage-restructuring
           note was properly recorded. We have reviewed the documentation submitted
           subsequent to our review and conclude that although the documentation supports
           that the $91,650 was paid, it does not provide evidence that the project has not
           been encumbered.




                                           33
Appendix C

                                    CRITERIA


   A. HUD Handbook 4381.5, REV-2, CHG-2, “The Management Agent Handbook,”
      paragraph 6.50(a), provides that when an owner/agent is contracting for goods or
      services involving project income, an agent is expected to solicit written cost
      estimates from at least three contractors or suppliers for any contract, ongoing supply,
      or service which is expected to exceed $10,000 per year.

   B. HUD Handbook 4381.5, REV-2, CHG-2, “The Management Agent Handbook,”
      paragraph 6.50(b), provides that for any contract, ongoing supply, or service
      estimated to cost less than $5,000 per year, the agent should solicit verbal or written
      cost estimates to assure that the project is obtaining services, supplies, and purchases
      at the lowest possible cost. The agent should make a record of any verbal estimate
      obtained.

   C. HUD Handbook 4381.5, REV-2, CHG-2, “The Management Agent Handbook,”
      paragraph 6.50(c), provides that documentation of all bids should be retained as a part
      of the project records for three years following the completion of the work.

   D. HUD Handbook 4370.2, REV-1, CHG-1, “Financial Operations and Accounting
      Procedures for Insured Projects,” paragraph 2-6(e), provides that all disbursements
      from the regular operating account (including checks, wire transfers, and computer-
      generated disbursements) must be supported by approved invoices/bills or other
      supporting documentation.

   E. HUD regulatory agreement, paragraph 8(b), provides that the owner shall not, without
      the prior written approval of the HUD Secretary, assign, transfer, dispose of, or
      encumber any personal property of the project, including rents, or pay out any funds
      except from surplus cash, except for reasonable operating expenses and necessary
      repairs.

   F. HUD regulatory agreement, paragraph 8(e), provides that the owner shall not, without
      the prior written approval of the HUD Secretary, make or receive and retain any
      distribution of assets or any income of any kind of the project except surplus cash.

   G. HUD regulatory agreement, paragraph 2(c), provides that the owner shall establish
      and maintain, in addition to the reserve fund for replacements, a residual receipts fund
      by depositing thereto the residual receipts within 60 days after the end of the
      semiannual or annual fiscal period within which such receipts are realized. Residual
      receipts shall be under the control of the HUD Secretary and shall be disbursed only
      on the direction of the Secretary, who shall have the power and authority to direct that



                                          34
   the residual receipts, or any part thereof, be used for such purpose as he may
   determine.

H. HUD Handbook 4370.2, REV-1, CHG-1, “Financial Operations and Accounting
   Procedures for Insured Projects,” paragraph 2-11(a), provides that advances made for
   reasonable and necessary operating expenses may be paid from surplus cash at the
   end of the annual or semiannual period.

I. HUD Handbook 4370.2, REV-1, CHG-1, “Financial Operations and Accounting
   Procedures for Insured Projects,” paragraph 2-11(b), provides that to encourage
   owners to make advances to projects in critical situations, HUD may approve on a
   case-by-case basis requests to make advances and for repayment of such advances on
   a monthly basis.

J. Project Owner/Management Agent Certification for Cayuga Village, effective
   January 1, 2004, through December 31, 2009, and signed August 11, 2004, paragraph
   1b(2), provides that the agent will collect from the project a management fee of 6.25
   percent of residential income collected.

K. Project Owner/Management Agent Certification for Touraine Apartments, effective
   January 1, 2004, through December 31, 2009, and signed August 11, 2004, paragraph
   1b(2), provides that the agent will collect from the project a management fee of 6.25
   percent of residential income collected.

L. HUD mortgage restructuring regulatory agreement, paragraph 1, provides that the
   owners assume and agree to promptly make all payments due under the note and
   mortgage.




                                      35
